No. 20-1130

 

 

In THE
Supreme Court of the United States

ERICSSON INC., TELEFONAKTIEBOLAGET LM ERICSSON,

Petitioners,
v.

TCL COMMUNICATION TECHNOLOGY HOLDINGS, LIMITED,
TCT MOBILE LIMITED, TCT MOBILE (US) INC.,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,059 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 17, 2021.

 

Colin Casey Hdgan
Wilson-Epes Printing Co., Inc.
